<html>
<title> - MARKUP OF H.R. 3690, U.S. CAPITOL POLICE AND LIBRARY OF CONGRESS POLICE MERGER IMPLEMENTATION ACT OF 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
MARKUP OF H.R. 3690, U.S. CAPITOL POLICE AND LIBRARY OF CONGRESS POLICE 
                   MERGER IMPLEMENTATION ACT OF 2007 

=======================================================================

                                MEETING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                HELD IN WASHINGTON, DC, NOVEMBER 7, 2007

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html

                              ----------
                        U.S. GOVERNMENT PRINTING OFFICE 

41-929 PDF                    WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



























































                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              VERNON J. EHLERS, Michigan
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    DANIEL E. LUNGREN, California
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                 S. Elizabeth Birnbaum, Staff Director
                 Will Plaster, Minority Staff Director


                          MARKUP OF H.R. 3690

                      WEDNESDAY, NOVEMBER 7, 2007

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 12:38 p.m., in room 
1310, Longworth House Office Building, Hon. Robert A. Brady 
(chairman of the committee) Presiding.
    Present: Representatives Brady, Capuano, Gonzalez, Davis of 
California, Davis of Alabama, Ehlers, Lungren, and McCarthy.
    Staff Present: Liz Birnbaum, Staff Director; Michael 
Harrison, Professional Staff; Teri Morgan, Deputy Chief 
Counsel; Matt Pinkus, Professional Staff/Parliamentarian; Kyle 
Anderson, Press Director; Kristin McCowan, Chief Legislative 
Clerk; Matthew DeFreitas, Staff Assistant; Fred Hay, Minority 
General Counsel; and Bryan T. Dorsey, Minority Professional 
Staff.
    The Chairman. The Committee on House Administration will 
come to order. The committee will now mark up the U.S. Capitol 
Police and Library of Congress Police Merger Implementation 
Act, H.R. 3690.
    In 2003, Congress passed legislation merging the Library 
Police into the Capitol Police. The goal was to unify these two 
police agencies and create ``seamless security'' on Capitol 
Hill. The legislation called for the agencies to develop a 
merger plan for congressional approval.
    In 2007, four years later, the merger has yet to be 
completed. This is unfortunate because valuable time has been 
lost. Merging these police forces is a sound idea. If done 
carefully and well, it will make Capitol Hill more secure for 
the millions who visit and for the thousands privileged to work 
here. I believe it is time to get on with it.
    Briefly, H.R. 3690 will implement the merger plan devised 
by the Library and the Capitol Police. The bill represents, in 
every aspect, the recommendations of the Capitol Police and the 
Library, delivered to this committee and to the Senate.
    Under the plan, all Library Police employees will move to 
the Capitol Police by September 30, 2009. Library officers who 
meet age and service requirements, and who complete Capitol 
Police training, will continue as officers. Library officers 
who do not meet those requirements will be offered Capitol 
Police civilian jobs. This is important: Under this plan, I 
repeat, nobody will lose a job or suffer reduction in pay, 
rank, accrued leave or other benefits. Officers now represented 
by the Library's Fraternal Order of Police will transfer to the 
Capitol Police's FOP, who will bargain with management over 
seniority and other labor matters that may arise during the 
merger.
    The plan shifts jurisdiction over Library buildings in the 
District to USCP. The Librarian will retain responsibility for 
design of security systems and will issue regulations to 
protect the collections and maintaining order. Finally, the 
bill provides for handling employment-related claims during the 
transition and authorizes reimbursement of the Capitol Police 
for costs of Library special events.
    This is a sound plan for the merger. I commend everyone 
involved in both agencies, especially for finding a way to 
ensure that nobody loses their job or pay.
    I now would like to recognize the ranking member from 
Michigan for any statement that he would like to make.
    Mr. Ehlers. Thank you, Mr. Chairman. I have very brief 
comments. First of all, it struck me as you were reading this 
about their job security. I suddenly realized they have far 
greater job security than anyone here on the dais does. I think 
maybe we should negotiate such a good deal.
    More seriously, this is something badly needed. I am sorry 
it took so much time to negotiate. But there are so many 
factors in it. But it is certainly a great idea, particularly 
in this age when we have greater security needs on the Hill, 
and we certainly have to include the Library in that as well, 
particularly since they are going to be immediately connected 
to us through the Capitol complex with two tunnels now, not 
just one. So I strongly support this bill and urge its 
adoption.
    The Chairman. Thank you. Anybody have any statements? No 
other statements?
    There being no further opening statements, the Chair lays 
before the Committee the bill, H.R. 3690, to provide for the 
transfer of Library of Congress Police to the United States 
Capitol Police and for other purposes, which is before the 
members. Without objection, the bill will be considered as read 
and open to amendment at any point. No objection.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. I would like to offer an amendment on the 
subject of a probationary period for transferring employees, 
which is also before the Members. Without objection, the 
amendment will be considered as read.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. This amendment is simple, fair and 
appropriate. Like other Federal agencies, the Capitol Police 
place new employees in a ``probationary'' status for the first 
year of employment. During this year, managers have wide 
discretion to terminate the new employees whose performance 
does not meet expectations and the employees have little 
recourse.
    I consider probation for Library police officers 
transferred to the Capitol Police in this merger inappropriate. 
All have served for over a year, many much longer. They are not 
``new'' employees.
    Chief Morris agrees and has advised the Committee that he 
considers probationary periods unnecessary. Under the 
circumstances I believe the Committee should add language to 
that effect.
    I urge the Committee to support the amendment.
    Mr. Ehlers.
    Mr. Ehlers. Mr. Chairman, I certainly agree with this. It 
totally makes sense. I am a little concerned about the wording 
because this could be interpreted to say that they can never 
during their tenure here be put on probation for some 
disciplinary action. I wonder if perhaps we should just insert 
the words ``the initial period of probation'' to make that 
clear. We could certainly take care of that with negotiation 
with the Senate. I am not sure we need a formal amendment here, 
but I wanted to bring that to your attention, and perhaps your 
staff and our staff can look at that.
    The Chairman. I understand. We are not saying that they 
could never be looked at or disciplined.
    Mr. Ehlers. We may want to clarify that one point.
    The Chairman. That is not a problem. We could certainly do 
that.
    Is there any further debate? The question is on the 
amendment. All in favor signify by saying ``aye.'' All opposed, 
say ``no.''
    The amendment passes.
    Any further amendments? With no further amendments, I would 
like to recognize the gentleman from Massachusetts for a 
motion.
    Mr. Capuano. Mr. Chairman, I move that H.R. 3690 be 
referred to the House, with an amendment.
    The Chairman. We have heard the motion. All in favor 
signify by saying ``aye.'' Any opposed? The amendment is 
passed. In the opinion of the Chair the ``ayes'' have it. The 
``ayes'' do have it, and the motion is agreed to.
    Without objection, a motion to reconsider is laid upon the 
table.
    Without objection, the staff will be authorized to make 
such technical and conforming changes as may be required to 
reflect the actions of the committee.
    With that, this Committee is now in recess until 1:00, when 
we will have a hearing. We have 15 minutes. Thank you.
    [Whereupon, at 12:45 p.m., the committee was adjourned.]

</pre></body></html>
